           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      THE SOCIAL SECURITY
   ADMINISTRATION’S WORKERS’
   COMPENSATION DATA MATCH
    WITH THE STATE OF TEXAS


     April 2003   A-06-03-13022


 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   April 15, 2003                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report – The Social Security Administration’s Workers’
        Compensation Data Match with the State of Texas (A-06-03-13022)


        OBJECTIVE
        Our objective was to evaluate the results of the Social Security Administration’s (SSA)
        workers’ compensation (WC) data match with the State of Texas including:

        •   SSA’s methodology for evaluating the data and deriving its conclusions;
        •   the potential impact of unreported WC on Social Security Disability Insurance (DI)
            benefits and Supplemental Security Income (SSI) payments in the State of Texas;
        •   the possible cost-effectiveness of matching States’ WC data against SSA’s
            beneficiary/recipient records;
        •   the implications of potential over- and underpayments nationwide; and
        •   SSA’s decision on whether to perform additional data matches with other States.

        BACKGROUND
        Our November 1999 report, Workers’ Compensation Unreported by Social Security
        Beneficiaries, noted two major causes of inaccurate DI payments: first, beneficiaries’
        failure to voluntarily report changes in WC status and benefits and second, SSA’s
        inability to independently identify those WC changes. In the report, we also noted that
        SSA had on-line access with agencies in 22 States. However, for WC data, SSA had
        on-line access in only 5 of the 22 States. We recommended that, for States where
        on-line access of WC data was not a current option, SSA negotiate agreements with
        State officials to periodically obtain computer extracts of State WC information and
        benefit payments. In response to our recommendation, SSA stated it was pursuing
        matching agreements in the 10 largest WC States.
Page 2 – The Commissioner


On August 15, 2000, SSA and the Texas Workers’ Compensation Commission (TWCC)
signed an agreement whereby the State would provide records containing State WC
information to SSA to match against its Old-Age, Survivors and Disability Insurance
(OASDI) beneficiary and SSI recipient records. TWCC agreed to provide SSA an
electronic file containing available data on WC benefits from April 1, 1991 to the date of
the match. Preliminary results show that SSA is identifying several million dollars in
overpayments. Also, a former SSA employee alleged field office personnel have little or
no time available to review the cases of individuals who have returned to work or who
might be receiving WC. According to the former SSA employee, these issues require
more time to develop but, if not considered, potentially result in overpayments to
beneficiaries.

RESULTS OF REVIEW
We were unable to evaluate the results of SSA’s WC data match with the State of
Texas because SSA had not (1) completed its analysis of the DI cases with WC data
identified from the match, (2) conducted a match against SSI records, (3) assigned
overall accountability of the Texas match project to any particular component,
(4) defined when it will derive the results necessary to determine whether the project will
be worth expanding to other States, or (5) conducted or started the process of
conducting a cost-benefit analysis (CBA) as of the time of our review. SSA considered
its normal workload and other WC initiatives as having greater priority than the Texas
data match.

SSA experienced problems with the first file it received from Texas, and this delayed its
progress on the match. SSA first received a file from the State of Texas in
September 2000. This file contained 691,286 records; however, 290,000 of the records
were not usable because the records contained “open dates.” With the usable portion
of the file, SSA identified 1,298 cases with WC data that corresponded to DI
beneficiaries. SSA received a second file from the State in November 2001. This file
contained 974,414 records. From this file, SSA identified another 4,919 DI cases with
WC data. From both files, SSA identified DI cases for which it had no prior WC
information and DI cases for which it did have WC information but for which the
amounts in SSA’s records differed from the amounts in the Texas WC file. SSA
planned to review all of the cases (3,463 total records) for which it had no prior WC
information and a portion of the cases (718 total records) for which the amounts in
SSA’s records differed from the amounts in the Texas WC file. SSA had not started its
match of the Texas WC information against SSI recipient records.

With respect to the CBA, SSA staff informed us that the various components involved in
the matching program would have to provide input for the standards, methodology, and
data with which to complete the CBA. However, as of October 2002, representatives
from these components had not met.
Page 3 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS

SSA has not completed its analysis of the data match, conducted a match against SSI
records, or assigned overall accountability for overseeing and reporting the results.
Accordingly, we recommend that SSA:

1. Identify a lead office for the Texas match project to oversee, consolidate, and report
   the work being done by the various SSA components involved in the project.

2. Establish time frames for the completion of work by each component and the lead
   office.

AGENCY COMMENTS
SSA agreed with our recommendations. It designated the Office of Disability and
Income Security Programs as the lead office to oversee work done by other SSA
components, and it expects to complete the CBA for the title II portion of the match by
the end of April 2003. It also expected to complete the title XVI records match by the
end of March 2003. Based on completion of these actions, it will then establish
additional time frames. See Appendix D for the full text of SSA’s comments.

OIG RESPONSE

We commend SSA for taking prompt action on our recommendations. SSA’s
completion of the WC data match with the State of Texas should put it in a better
position to determine the feasibility of pursuing similar projects with other States. By
having at its disposal another tool with which to identify unreported WC benefits, SSA
can better ensure beneficiaries and recipients are paid the correct amount of benefits.




                                                   James G. Huse, Jr.
                                     Appendices
APPENDIX A – Background

APPENDIX B – Scope and Methodology

APPENDIX C – Acronyms

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                       Appendix A

Background
The Social Security Administration (SSA) administers the Old-Age, Survivors and
Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs under
titles II and XVI of the Social Security Act. The OASDI program provides benefits to
retired and disabled workers, including their dependents and survivors. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

Benefits are reduced or totally offset if a disabled worker is also entitled to State
workers’ compensation (WC) payments. WC payments are made to a worker because
of a work-related injury, illness or disease. Offset is applied when total benefits payable
to the worker and auxiliaries, plus WC payments exceed the highest of 80 percent of the
worker’s average current earnings or the total family benefits payable to the worker and
any auxiliaries.

On August 15, 2000, SSA and the Texas Workers’ Compensation Commission (TWCC)
signed an agreement by which TWCC would provide SSA with WC records for a
matching operation. SSA used these records to proactively identify changes in WC
benefits and status to ensure efficient and accurate processing of entitlement and
post-eligibility workloads. The original agreement was effective for 18 months. It was
extended for an additional 12 months on March 7, 2002.

TWCC provided a file to SSA in September 2000. This file contained 691,286 records;
however, 290,000 of the records were not usable because the records contained “open
dates.” With the portion of the file that was usable, SSA identified 1,298 cases with WC
data that corresponded to Social Security Disability Insurance (DI) beneficiaries. SSA
received a second file from the State during November 2001. This file contained
974,414 records. From this file, SSA identified another 4,919 DI cases with WC data.
From both files, SSA identified DI cases for which it had no prior WC information
(Type A alerts) and DI cases for which it did have WC information but for which the
amounts in SSA’s records differed from the amounts in the Texas WC file (Type B
alerts). From both files, SSA identified 3,463 Type A alerts and 1,773 Type B alerts.
SSA planned to review all of the cases (3,463 total) for which it had no prior WC
information and a portion of the cases (718 total records) for which the amounts in
SSA’s records differed from the amounts in the Texas WC file. See Table 1 for a
summary of the preliminary results from matching both files received from Texas
against DI records.




                                          A-1
                                                 Table 1:
                    Summary of DI Beneficiaries with WC Data Identified from
                                  Files Received from Texas
                                                               1st File        2nd File
                                                              Received        Received
                         Description                        Sept. 12, 2000   Nov. 14, 2001      Totals
    Number of WC records received from Texas                       691,286         974,414    1,665,700
    Number of records matching DI beneficiaries                      1,361           4,919        6,280
    Duplicates                                                          63       Unknown             63
    Unduplicated Matches                                             1,298           4,919        6,217
    Records identified from other WC initiatives                         0             981          981
    Net records identified from this initiative                      1,298           3,938        5,236
    Records Identified Consisted of:
    Type A: No previous WC information on SSA records                 697             2,766       3,463
    Type B: WC amount on SSA records differed from                    601             1,172       1,773
    amount in Texas records
    Number of records selected by SSA for review                    1,298            2,8831       4,181

While SSA’s analysis on the number of over- and underpayments identified through the
matching operation is not complete, preliminary information on 1,298 cases reviewed
(24.8 percent of the 5,236 cases identified for review) shows 451 cases with
overpayments totaling over $3.3 million. Assuming the 5,236 cases are not further
reduced by duplicates or other       Table 2: Top 10 States Account for 53.0 Percent of Non-
errors, if the results found for    Federal Workers Covered Under Workers’ Compensation
the 1,298 cases are similar for                                        Covered
the remainder of the cases, the                                     Workers  (in
Texas data match could identify        Rank         Top  Ten States  thousands)     Percent
                                          1     California              14,599          11.8
an estimated $13 million in
overpayments. In Fiscal Year              2     New York                 8,313           6.7
(FY) 2000, Texas had                      3     Texas                    7,465           6.0
approximately 7.5 million                 4     Florida                  6,728           5.4
non-Federal workers covered               5     Illinois                 5,800           4.7
             2
under WC. The number of                   6     Pennsylvania             5,444           4.4
workers in Texas represented              7     Ohio                     5,426           4.4
6 percent of the total                    8     Michigan                 4,417           3.6
non-Federal covered workers in            9     New Jersey               3,809           3.1
FY 2000. The top 10 States
                                         10     Georgia                  3,650           2.9
with covered non-Federal
                                                Totals                  65,651          53.0
workers in FY 2000 accounted
for 53.0 percent of all
non-Federal workers. Georgia ranked tenth with 2.9 percent and California ranked first


1
 The number of records selected for review from the 2nd file consists of all Type A records (2,766) and
10 percent of Type B records (117).
2
 National Academy of Social Insurance, Workers’ Compensation: Benefits, Coverage, and Costs, 2000
New Estimates, June 2002.



                                                 A-2
with 11.8 percent. If matching operations in the top 10 States produced similar results
to those found in Texas, there could be overpayments ranging from approximately
$6.4 million in Georgia to approximately $26 million in California.

In August 2002, an SSA employee retired from Federal service and proceeded to
publish what he called his exit conference on the Internet.3 This employee alleged,
among other things, that field office staff had little or no time available to work on
reviewing people who have returned to work or who might be receiving workers’
compensation. According to the former SSA employee, these issues require more time
to develop but, if not considered, potentially result in overpayments to beneficiaries.




3
    http://www.workedforssa.sylera.com/




                                          A-3
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we

•   reviewed the agreement between the Social Security Administration (SSA) and the
    Texas Workers’ Compensation Commission whereby the State would provide
    records containing State workers’ compensation information to SSA to match
    against its title II beneficiary and title XVI recipient records;

•   reviewed applicable sections of the Social Security Act, Computer Matching &
    Privacy Protection Act of 1988, and SSA’s Computer Matching Overview and
    Procedures; and

•   interviewed personnel within the Division of Operations Analysis and Customer
    Service; Operations Analysis Section; Office of Process Policy; Division of Client,
    Enumeration and Exchanges; and the Division of Title II Control & Queries.

We performed audit work in Baltimore, Maryland; Kansas City, Missouri; and Dallas,
Texas, from August through November 2002. The entities reviewed were the Division
of Operations Analysis and Customer Service and the Operations Analysis Section
under the Deputy Commissioner for Operations; the Office of Process Policy under the
Deputy Commissioner for Disability and Income Security Programs; and the Division of
Client, Enumeration and Exchanges, and the Division of Title II Control & Queries under
the Deputy Commissioner for Systems. We conducted our review in accordance with
generally accepted government auditing standards.
                                                      Appendix C

Acronyms
CBA     Cost-Benefit Analysis

DI      Disability Insurance

FY      Fiscal Year

OASDI   Old-Age, Survivors and Disability Insurance

SSA     Social Security Administration

SSI     Supplemental Security Income

TWCC    Texas Workers’ Compensation Commission

WC      Workers’ Compensation
                  Appendix D

Agency Comments
                                           SOCIAL SECURITY


MEMORANDUM


Date:      March 27, 2003                                                            Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General Management Advisory Draft Report, “The Social Security
           Administration’s Workers’ Compensation Data Match with the State of Texas”
           (A-06-03-13022)—INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara on extension 53568.

           Attachment:
           SSA Response




                                                            D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL MANAGEMENT
ADVISORY DRAFT REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S
WORKERS’ COMPENSATION (WC) DATA MATCH WITH THE STATE OF TEXAS”
(A-06-03-13022)


Thank you for the opportunity to review this report. Our response to the specific
recommendations is provided below.

Recommendation 1

Identify a lead office for the Texas match project to oversee, consolidate, and report the work
being done by the various SSA components involved in the project.

Comment

The Office of Disability and Income Security Programs will be the lead office for the Texas
match project to oversee, consolidate and report the work being done by the various SSA
components involved in the project.

Recommendation 2

Establish time frames for the completion of work by each component and the lead office.

Comment

The Office of Quality Assurance and Performance Assessment will perform the cost-benefit
analysis (CBA) for the title II portion of the Texas data match. Barring any unforeseen problems
with the database information, the CBA should be completed by the end of April 2003. The match
of Texas WC data against title XVI records is scheduled to be run at the end of this month.

Additional timeframes will be established following completion of these actions.




                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, (617) 565-1819

   Paul Davila, Deputy Director, (214) 767-6317

Acknowledgments

In addition to those named above:

   Lela Cartwright, Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-03-13022.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
